                            SOCIAL SECURITY

September 4, 2009


The Honorable John S. Tanner
Chairman
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Tanner:

During testimony on September 16, 2008 before your Subcommittee, the issue of how
the Social Security Administration’s claims process impacts disabled beneficiaries’ lives
was raised. Therefore, we initiated a review, and the enclosed report summarizes the
results.

To ensure the Social Security Administration is aware of the information provided to
your office, we are forwarding a copy of this report to the Agency. If you have any
questions concerning this matter, please call me or have your staff contact Wade
Walters, Assistant Inspector General for External Relations, at (202) 358-6319.

                                                Sincerely,


                                            S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

  Impact of the Social Security
Administration’s Claims Process on
     Disability Beneficiaries

          A-01-09-29084




          September 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                              Background
OBJECTIVE
The objective of our review was to determine whether the wait for benefits impacted the
disability beneficiaries’ finances, access to medical care, and relationships.

BACKGROUND

The Social Security Administration (SSA) provides Disability Insurance and
Supplemental Security Income disability benefits to eligible individuals under Titles II
and XVI of the Social Security Act. An individual is considered to be disabled under
SSA’s regulations if he or she is unable to engage in substantial gainful activity1 by
reason of a medically determinable physical or mental impairment that can be expected
to result in death or has lasted, or can be expected to last, for a continuous period of not
less than 12 months.2

To receive disability benefits, an individual must first file an application with SSA. An
SSA field office then determines whether the individual meets the non-disability criteria
for benefits,3 and if so, forwards the claim to a State disability determination services
(DDS) for a disability determination. Once the DDS makes a determination, it sends the
claim back to an SSA field office for final processing4 or to the Disability Quality Branch
for review before final processing.5

If the applicant disagrees with the initial disability determination, he or she can file an
appeal within 60 days from the date he or she is notified of the determination.

1
  20 C.F.R. §§ 404.1572 and 416.972: Substantial gainful activity means the performance of significant
physical and/or mental activities in work for pay or profit, or in work of a type generally performed for pay
or profit. As of 2009, “countable earnings” of employees indicate substantial gainful activity and
“countable income” of the self-employed is “substantial” if the amount averages more than $980 per
month for non-blind individuals or $1,640 for blind individuals, SSA, Program Operations Manual System
(POMS), DI 10501.001 and 10501.015 B and C.
2
 The Social Security Act, Title II, § 223(d)(1)(A), 42 U.S.C. § 423 (d)(1)(A) and Title 16, § 1614(a)(3)(A),
42 U.S.C. § 1382c(a)(3)(A). See also, 20 C.F.R. §§ 404.1520 and 416.920.
3
  For Disability Insurance benefits, the non-disability criteria include such factors as sufficient earnings,
while for Supplemental Security Income payments, the non-disability criteria include such factors as low
income and resources.
4
 If the field office cannot process the claim or partially processes the claim (that is, initiates payment but
does not issue any back payments), then it will send the claim to the Payment Service Center for final
processing.
5
  The Disability Quality Branch selects half the DDS’ allowances and a statistically valid sample of DDS’
denials. A Federal quality reviewer reviews each sample case to determine whether the record supports
the determination and whether the evidence and determination conform to SSA’s policies and
procedures.

Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                       1
Generally, an individual can file up to four levels of appeal, including a
(1) reconsideration by the DDS, (2) hearing by an administrative law judge (ALJ),
(3) review by the Appeals Council (AC), and (4) review by the Federal courts.6

Over the past several years, SSA has developed a number of initiatives to expedite its
disability claims process, including the following.
       Plan to Eliminate the Hearing Backlog and Prevent Its Recurrence
       Quick Disability Determinations
       Compassionate Allowances
       Terminal Illness Cases
       Military Service Casualty Cases
       Presumptive Disability and Blindness Cases
       Electronic Health Records
       Recovery Act Initiatives

See Appendix B for more information on these initiatives.

At a congressional hearing on September 16, 2008, the U.S. House of Representatives
Committee on Ways and Means, Subcommittee on Social Security, questioned how
SSA’s claims process impacts disabled beneficiaries.7 Additionally, the media has been
reporting on the hardships claimants face while waiting for SSA to process their
disability claims. Therefore, we initiated this review.

To perform our review, we identified individuals whom SSA found disabled in
Fiscal Year 2008 and were receiving benefits as of March 2009. Through further
analysis, we identified
       367,465 individuals who received determinations from the DDS at either the initial
        level—for claims that took longer than average8—or the reconsideration level;
       282,701 individuals who received decisions from an ALJ at the hearing level; and
       961 individuals who received decisions from the AC or Federal court.


6
 See Appendix C for a description of the roles each component plays in the disability claims process.
The reconsideration step of the appeals process is eliminated for DDSs participating in the Disability
Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches,
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania).
7
 A transcript of this hearing can be found at
http://waysandmeans.house.gov/hearings.asp?formmode=printfriendly&id=7846.
8
 We determined that a claim took longer than average to process if the difference between the date of
application and the date of completion exceeded the average initial disability processing time. In
FY 2008, the average processing time for initial disability claims was 106 days. SSA, FY 2008
Performance and Accountability Report, p. 46, November 2008.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                               2
We then randomly selected 250 sample cases from each of the first 2 populations and
50 cases from the last population—for a total of 550 cases. We attempted to contact
each beneficiary (or representative payee)9 to discuss his or her experiences—
regarding finances, access to medical care, and relationships—while waiting for SSA to
make a decision on his or her disability claim. (See Appendix D for more information on
our scope, methodology, and sample results.)




9
 Some individuals cannot manage or direct the management of their finances because of their age,
mental, or physical impairments. For such individuals, Congress provided for payment to be made
through representative payees who receive and manage the benefit payments for these beneficiaries and
recipients. The Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).

Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                          3
                                                          Results of Review
Most of the participants believed their wait for benefits impacted at least one aspect of
their lives, such as their finances, access to medical care, or relationships.10 Further,
the more levels of adjudication these individuals went through, the more often they
believed this. Table 1 shows the participants by level of adjudication at which they were
allowed disability benefits, and Table 2 shows the number of beneficiaries impacted by
the wait for benefits.

                   Table 1: Beneficiaries Who Participated in Our Review
              Adjudication Level         Sample                    Participants
             DDS                            250                     191 (76%)
             ALJ                            250                     195 (78%)
             AC/Federal Court                50                      38 (76%)
             Total                          550                    424 (77%)11

                     Table 2: Beneficiaries Impacted by Wait for Benefits
                                                                   Aspect of Life Impacted
     Adjudication                      Beneficiaries                    Access
                       Participants
        Level                           Impacted                          to
                                                          Finances                   Relationships
                                                                        Medical
                                                                         Care
     DDS                   191               157            142            48               57
     ALJ                   195               174            163            62               97
     AC/Federal
                            38               37               35           17               25
     Court
                                                  12
     Total                 424              368             340           127              179



10
   For our sample cases, the average waiting time from date of application to date of completion was
176 days for the initial DDS cases, ranging from 107 days to almost 2 years; 308 days for reconsidered
DDS cases, ranging from 124 days to almost 2 years; over 2 years for the ALJ cases, ranging from
122 days to almost 5 years; over 3 years for the AC cases, ranging from over 1 year to almost 6 years;
and about 6 years to process the Federal court cases, ranging from over 3 years to over 13 years. Some
of this time includes time over which SSA has no control, such as mail time, time to request an appeal,
and time for the Federal court to review a case and render a decision. If the beneficiary had a
representative payee, we spoke to the payee.
11
  Of the 424 participants, 293 received Disability Insurance payments, 100 received Supplemental
Security Income payments, and 31 received both types of payments.
12
   Since the wait for benefits impacted the lives of some beneficiaries in more than one way, the number
of beneficiaries in the last 3 categories of Table 2 do not total to 368 beneficiaries.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                 4
Of the remaining 126 individuals in our sample, 117 could not be contacted,13
6 informed us they did not want to participate in our review, 2 were never allowed
disability benefits,14 and 1 was allowed disability benefits before Calendar
Year 2008.

IMPACT OF WAIT FOR BENEFITS ON FINANCES

Of the 424 disability beneficiaries                  Chart 1: Sample Results of 424 Beneficiaries
who participated in our review,                        Impact of Wait for Benefits on Finances

                                                                     Did impact finances
    340 said the wait for benefits                                   340 Cases (80%)
     impacted their finances,
    51 said the wait did not impact
     their finances, and
    33 did not mention the wait’s
     impact on their finances.

FINANCES IMPACTED BY WAIT                            Did not mention impact on       Did not impact
FOR BENEFITS                                                  finances                  finances
                                                          33 Cases (8%)              51 Cases (12%)
For the 340 beneficiaries who
indicated their wait for benefits
impacted their finances, the more levels of adjudication these individuals went through,
the more often they said this (Table 3).

          Table 3: Beneficiaries Whose Finances Were Impacted by Wait for
                                     Benefits
         Adjudication Level              Participants                            Impacted
       DDS                                     191                        142                74%
       ALJ                                     195                        163                84%
       AC/Federal Court                         38                          35               92%
       Total                                   424                        340                80%




13
  We determined a beneficiary could not be contacted if we were unable to reach him or her after mailing
two letters and making up to three telephone calls. When this happened, we informed SSA.
14
   In these two cases, the DDS determined that the individuals were medically disabled, but the field
office determined that they did not meet all the non-medical criteria. These individuals were receiving
retirement or widow’s benefits at the time of our review.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                5
These beneficiaries indicated that, at some point while waiting for benefits, they had no
income or insufficient income15 to meet their living (food, clothing, and shelter) and/or
medical expenses. To meet these expenses, most of the beneficiaries told us they took
certain measures (Table 4) that generally caused them to go through difficult
experiences.

         Table 4: Measures Taken by Beneficiaries While                         Number of
         Waiting for Benefits                                                  Beneficiaries16
         Obtained assistance from friends, family, and charities                       231
         Accrued debt                                                                  141
         Used savings                                                                   65
         Continued or returned to work                                                  13
         Sold personal belongings (such as a car or boat)                               11

Obtained Assistance from Friends, Family and Charities

In 231 of the 340 cases, the beneficiaries obtained assistance from friends, family,
and/or charities at some point while waiting for benefits. This assistance included cash
as well as free food, clothing, shelter, and medical care. For example, a woman from
Virginia applied for disability benefits in November 2006 because of heart problems,
diabetes, and depression. The DDS denied her claim. She then requested a
reconsideration, which the DDS also denied. Next, she requested a hearing by an ALJ,
who allowed her claim in March 2008. According to the beneficiary, she received
thousands of dollars from her sister to help pay for her food, mortgage, and electric bills
during this time. Additionally, the beneficiary told us that, to provide this assistance, her
sister used all her savings, which made it difficult for her to pay her own bills.

In another example, a woman from Texas applied for disability benefits in May 2003
because of post-traumatic stress disorder, depression, asthma, and high blood
pressure. The DDS (at both the initial and reconsideration levels) and an ALJ denied
her claim. In February 2008, the AC allowed it. She informed us that while waiting for
benefits, she had to move in with her pastor’s family and accept clothes from church
members.




15
  These beneficiaries had one or more types of income such as public assistance, spouse’s income,
private/public disability benefits, earnings, Veterans Affairs benefits, and workers’ compensation benefits.
16
  Some beneficiaries had to take more than one measure while waiting for benefits. Therefore, the
number of beneficiaries in Table 4 does not total 340 beneficiaries.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                 6
Accrued Debt

In 141 of the 340 cases, the beneficiaries informed us they accrued debt while waiting
for their benefits. Of these beneficiaries,
        32 owed money to financial institutions, such as banks and credit card
         companies;
        6 owed money to disability insurance companies; and
        111 fell behind on their bills for living and/or medical expenses17—causing 59 of
         them to go through difficult experiences (Table 5).

            Table 5: Difficult Experiences by                              Number of
            Beneficiaries While Waiting for Benefits                      Beneficiaries18
            Could no longer afford home or apartment                              50
            Lived in someone else’s household for free                            36
            Became homeless                                                         8
            Filed for bankruptcy                                                    6
            Had utilities turned off                                                4

For example, a man from Oregon filed for disability benefits in August 2005 because of
a back injury and diabetes. The DDS denied his claim (at both the initial and
reconsideration levels), and in December 2007, an ALJ allowed it. According to the
beneficiary, he fell behind on his mortgage and medical bills while waiting for benefits.
As a result, he lost his house and had to declare bankruptcy.

In another example, a woman from Ohio applied for disability benefits in October 2005
because of a back disorder, anxiety, and migraines. The DDS denied her claim (at both
the initial and reconsideration levels), and in September 2008, an ALJ allowed it. While
waiting for benefits, she fell behind on her bills for living expenses and, as a result,
became homeless. Some time later, her friends let her live in their camper for free.

According to the 141 beneficiaries we spoke with, once they began receiving their
benefits, many began paying off their debts. Some of these individuals were still paying
off their debts when we talked to them. For example, a man from Michigan filed for
disability benefits in February 2005 because of diabetes and heart problems. The DDS
denied his claim, and in July 2008, an ALJ allowed it. He told us that while waiting for
benefits, he accrued credit card debt to pay for his living expenses and fell behind on
his medical bills. After he received his benefits, he began paying off these debts.
Nearly 1 year later, when we talked to him, he was still having difficulties paying off
these debts and, as a result, collection agencies were calling him.

17
  Some beneficiaries are in more than one category. Therefore, the number of beneficiaries in these
categories does not total 141 beneficiaries.
18
  Some beneficiaries went through more than one difficult experience while waiting for benefits.
Therefore, the number of beneficiaries in Table 5 does not total 59 beneficiaries.

Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                            7
Used Savings

In 65 of the 340 cases, the beneficiaries informed us they spent some or all their
savings while waiting for benefits—which they will likely never replace because of their
disabling conditions. As a result, these individuals not only have less to live on now,
they will also have less to live on in their retirement years. For example, a woman from
Indiana applied for disability benefits in July 2007 because of an autoimmune disease,
high blood pressure, and depression. The DDS denied her claim (at both the initial and
reconsideration levels), and in March 2008, an ALJ allowed it. She informed us that
while waiting for benefits, she spent the money she had in a 401K account to pay for
her living expenses.

Continued or Returned to Work

In 13 of the 340 cases, the beneficiaries continued, or returned, to work earning less
than the substantial gainful activity limit while waiting for benefits. For example, a
woman from Massachusetts applied for disability benefits in May 2006 because of
problems with her hand and ribs as well as a lung removal. The DDS denied her claim
(at both the initial and reconsideration levels), and in January 2008, an ALJ allowed it.
While waiting for benefits, she continued working to meet her living expenses—which
caused her extreme pain because of her disabling condition.

IMPACT OF WAIT FOR BENEFITS ON ACCESS TO MEDICAL CARE
                                                         Chart 2: Sample Results of 424 Beneficiaries
Of the 424 disability beneficiaries who               Impact of Wait for Benefits on Access to Medical Care
participated in our review,                                     Did not impact access to medical care
    127 said the wait for benefits                                       282 Cases (67%)

     impacted their access to medical
     care;
    282 said the wait did not impact
     their access to medical care;19
     and
    15 did not mention the wait’s
     impact on their access to medical                  Did impact access to         Did not mention impact
     care.                                                  medical care            on access to medical care
                                                         127 Cases (30%)                 15 Cases (3%)




19
  While waiting for benefits, most of these individuals had health insurance coverage (such as Medicaid
or private insurance through their spouses’ employers), obtained free or low cost medical services, saw
doctors who deferred payment for their services, and/or paid for their medical care with cash.

Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                      8
ACCESS TO MEDICAL CARE IMPACTED BY WAIT FOR BENEFITS

For the 127 beneficiaries who indicated their wait for benefits impacted their access to
medical care, the more levels of adjudication these individuals went through, the more
often they said this (Table 6).

        Table 6: Beneficiaries Whose Access to Medical Care was Impacted
                                by Wait for Benefits
        Adjudication Level               Participants                         Impacted
      DDS                                     191                       48                  25%
      ALJ                                     195                       62                  32%
      AC/Federal Court                         38                       17                  45%
      Total                                   424                      127                  30%

At some point while waiting for benefits, these beneficiaries could not afford all their
necessary medical care, and as a result, they did not always obtain it. For example, a
woman from Texas applied for disability benefits in April 2007 because of depression,
back pain, and diabetes. The DDS denied her claim (at both the initial and
reconsideration levels), and in July 2008, an ALJ allowed it. According to the
beneficiary, during most of this time, she did not have health insurance and, therefore,
could not obtain the medication she needed—which, in turn, caused her to develop
kidney problems.

IMPACT OF WAIT FOR BENEFITS ON RELATIONSHIPS

Of the 424 disability beneficiaries who                    C hart 3: Sam ple Res ults o f 424 Beneficiaries
                                                            Imp act of Wait for Ben efits on Relationships
participated in our review,                                            Did not impact relationships


                                                                             172 Cases (41%)
    179 said the wait for benefits
    impacted their relationships;
   172 said the wait did not impact their
    relationships; and
   73 did not mention the wait’s impact
    on their relationships.
                                                        Did imp act relationships          Did not mention impact
RELATIONSHIPS IMPACTED BY WAIT                             179 Cases (42% )                   on relationships
FOR BENEFITS                                                                                  73 Cases (17%)



For the 179 beneficiaries who indicated their wait for benefits impacted their
relationships, the more levels of adjudication these individuals went through, the more
often they said this (Table 7).




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                     9
        Table 7: Beneficiaries Whose Relationships Were Impacted by Wait
                                   for Benefits
        Adjudication Level               Participants                      Impacted
      DDS                                      191                    57              30%
      ALJ                                      195                    97              50%
      AC/Federal Court                          38                    25              66%
      Total                                    424                  179               42%

For example, a man from Tennessee filed for disability benefits in December 2005
because of heart problems, high blood pressure, depression, and anxiety. The DDS
denied his claim (at both the initial and reconsideration levels), and in April 2008, an ALJ
allowed it. While waiting for benefits, he had no income. Eventually, his wife divorced
him and his children stopped speaking to him. He believed this happened because of
how long he had to wait for benefits. (See Appendix E for additional examples of our
sample beneficiaries’ experiences while waiting for their benefits.)




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                  10
                                                                       Conclusions
Our review provided an overview of how the wait for benefits impacted our sampled
disability beneficiaries’ finances, access to medical care, and relationships. Generally,
the more levels of adjudication these individuals went through, the more they believed
the wait impacted them. SSA is taking steps to improve the disability claims process so
qualified individuals are approved more quickly.




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             11
                                                                   Other Matters
A significant number of the beneficiaries we spoke with went out of their way to tell us
the SSA staff provided good customer service. Specifically, 67 (16 percent) of the
424 beneficiaries we spoke with told us they had a good experience with SSA staff. For
example, a woman from Georgia applied for disability benefits in March 2007 because
of high blood pressure, arthritis, shortness of breath, mood swings, depression, and
paranoid schizophrenia. The DDS denied her claim at the initial level but allowed it in
December 2007 at the reconsideration level. While waiting for benefits, she was
homeless and could not afford the medical care she needed. She stated she
considered suicide but was able to get through this difficult time because the SSA
employee who handled her case was very kind, patient, and helpful.

A portion of the beneficiaries we spoke with also mentioned that their wait for Medicare
insurance had a significant impact on their lives. Specifically, 27 (6 percent) of the
424 beneficiaries told us they thought their wait for Medicare insurance was too long. In
general, Medicare begins 24 months after an individual becomes entitled to disability
benefits. Congress established the 24-month waiting period to, in part, minimize any
overlap with private health insurance. Of these 27 beneficiaries, only 9 had private
health insurance. The remaining 18 beneficiaries had government-funded health
insurance, access to free or low-cost medical services, workers’ compensation medical
coverage, and/or no health insurance.




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             12
                                               Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Initiatives to Expedite the Disability
             Claims Process

APPENDIX C – The Social Security Disability Claims Process

APPENDIX D – Scope, Methodology, and Sample Results

APPENDIX E – Additional Examples of Sample Beneficiaries’ Experiences While
             Waiting for Benefits




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)
                                                                             Appendix A

Acronyms
 AC                 Appeals Council
 ALJ                Administrative Law Judge
 ARRA               American Recovery and Reinvestment Act of 2009
 C.F.R.             Code of Federal Regulations
 DDS                Disability Determination Services
 MEGAHIT            Medical Evidence Gathering and Analysis through Health
                    Information Technology
 OIG                Office of the Inspector General
 POMS               Program Operations Manual System
 Pub. L. No.        Public Law Number
 SSA                Social Security Administration
 U.S.C.             United States Code




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)
                                                                                  Appendix B

The Social Security Administration’s Initiatives
to Expedite the Disability Claims Process
The Social Security Administration (SSA) has a number of initiatives to expedite the
disability claims process, including a plan to eliminate the hearing backlog and prevent
its recurrence, quick disability determinations, compassionate allowances, military
service casualty cases, presumptive disability and blindness cases, terminal illness
cases, electronic health records, and American Recovery and Reinvestment Act of 2009
(ARRA)1 initiatives.

Plan to Eliminate Hearing Backlog and Prevent Its Recurrence

In May 2007, the Commissioner testified before Congress that SSA had developed a
plan to eliminate the backlog of hearing requests by 2013 and prevent its recurrence.
The plan focuses on (1) compassionate allowances, (2) improving performance,
(3) increasing adjudicatory capacity, and (4) increasing efficiency with automation and
business processes. To improve performance, SSA is reducing its aged cases and
providing certain attorney advisors the authority to make fully favorable decisions on
cases—thus reserving administrative law judges to conduct hearings on more complex
cases.2

Quick Disability Determinations

In February 2008, SSA implemented the Quick Disability Determination process, which
uses a predictive model to electronically identify claims involving a high potential that
the applicant is disabled, medical evidence can be quickly and easily obtained, and the
claim can be processed within 20 calendar days of receipt in the disability determination
services (DDS).3




1
    Pub. L. No. 111-5.
2
  SSA, Commissioner, Testimony before the Senate Finance Committee, May 23, 2007. We recently
conducted a review, Aged Claims at the Hearing Level (A-12-08-18071), to assess the age of the pending
claims in the hearings backlog, identify obstacles that prevented claims from being processed timely, and
identify best practices that can assist in reducing the aged claim backlog.
3
 20 Code of Federal Regulations (C.F.R.) §§ 404.1619 and 416.1019. See also, SSA, Program
Operations Manual System (POMS), DI 23022.010. In our May 2009 report, National Rollout of Quick
Disability Determinations (A-01-09-19030), we found the initiative was working as SSA intended to
expedite selected disability claims.



Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                           B-1
Compassionate Allowances

In October 2008, SSA implemented the Compassionate Allowance process, which
quickly identifies claims electronically involving diseases and other medical conditions
that invariably qualify under SSA’s Listings4 based on minimal, but sufficient, objective
medical information. Like the Quick Disability Determination process, this initiative uses
a predictive model, but it is simpler—selecting claims for processing based solely on the
applicant’s allegation of having a disease or other medical condition listed in the
Agency’s list of Compassionate Allowance conditions.5

Terminal Illness Cases

SSA implemented procedures to ensure disability claims with an indication of terminal
illness—either alleged by the claimant or a third party or indicated in medical records—
are handled expeditiously because of their sensitivity. These cases may be identified by
the teleservice center, field office, or DDS.6

Military Service Casualty Cases

The Military Service Casualty initiative is an SSA commitment to provide expedited
disability claim services to wounded service members and their families. SSA
established procedures to expedite disability claims for any military service personnel
injured October 1, 2001 or later, provided the injury occurred while on active duty. SSA
and DDS staffs are instructed to process these cases under the terminal illness
procedures.7

Presumptive Disability and Blindness Cases

In the 1970s, SSA implemented the presumptive disability and presumptive blindness
provisions. Under these provisions, an individual applying for Supplemental Security
Income disability payments may receive up to 6 months of payments before the final
determination if he or she is likely disabled and meets all other eligibility criteria.8




4
 SSA’s Listing of Impairments describes impairments that are considered severe enough to prevent an
adult from performing any gainful activity for work.
5
    SSA, POMS, DI 23022.015.
6
    SSA, POMS, DI 11005.601.
7
 SSA, POMS, DI 23020.050. We are conducting a review, Military Service Casualty Cases
(A-01-09-29056), to assess SSA’s efforts to streamline the disability claims process for these cases.
8
    SSA, POMS, DI 23535.001.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                              B-2
Electronic Health Records

In August 2008, SSA began piloting the Medical Evidence Gathering and Analysis
through Health Information Technology (MEGAHIT) prototype with Beth Israel
Deaconess Medical Center in Boston, Massachusetts. This computer process
automatically requests and receives electronic health records in a standardized form to
support SSA’s disability claim decision-making process. MEGAHIT then analyzes the
data and alerts the disability examiner if the claim might be an allowance according to
SSA’s Listing of Impairments. According to SSA, this process occurs within a matter of
minutes, resulting in shorter-than-average claim processing times.

In February 2009, SSA began working with MedVirginia in a trial implementation of a
system-to-system health information exchange through the Nationwide Health
Information Network. This is a secure Network connecting consumers, medical
providers, and others involved in supporting health care. SSA requests and receives
electronic health records through the Nationwide Health Information Network.
MEGAHIT then processes the electronic health record data. According to SSA, as of
May 2009, disability cases processed using medical information through these systems
has resulted in a higher rate of case allowance in less time compared to all disability
cases. The Agency is continuing to evaluate this process.

ARRA Initiatives

ARRA provided SSA with $500 million to help address the increasing disability and
retirement workloads caused by the combination of the economic downturn and the
leading edge of the baby boomer retirement wave.9

ARRA funding enabled the Agency to put significant front-line hires in place to
address the growing critical workloads. As of July 2009,
        SSA’s disability and retirement operations had hired 1,530 new employees in
         local field offices, teleservice centers, and processing centers and 296 new
         employees in the State DDSs, and
        hearings offices had hired 575 new employees, including support staff and
         administrative law judges. This staff was dispersed nationwide to provide relief
         to those offices most in need.10




9
 Pub. L. No. 111-5, Title VIII, SSA and SSA’s Agency-wide Recovery Act Plan, found at
http://ssa.gov/recovery/Report_Plan/AgencyWideRecoveryActPlan.pdf.
10
  We recently conducted three reviews related to hiring using ARRA funds: Planned Hiring by the Office
of Operations under the American Recovery and Reinvestment Act (A-09-09-29157), The Recovery Act
and the Hiring of Disability Determination Staff (A-07-09-29156), and The Recovery Act and the Office of
Disability Adjudication and Review’s Operations (A-12-09-29140).


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                           B-3
Additionally, SSA planned to invest approximately $16 million in information technology
that directly supports workload processing and approximately $24 million for health
information technology contracts with the health care community to provide electronic
health records to improve the speed and accuracy of the disability determination
process.11




11
  In our July 2009 report, Quick Response Evaluation: Funding for Health Information Technology Under
the American Recovery and Reinvestment Act of 2009 (A-01-09-29155), we found that SSA had been
proactive in planning for health information technology initiatives. The Agency developed a plan for
spending ARRA funds designated for health information technology and had established procedures to
ensure the funds were spent appropriately.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                       B-4
                                                                                       Appendix C

The Social Security Disability Claims Process
The Social Security disability claims process begins when a person files a disability
claim and does not end until the Social Security Administration (SSA) completes the
claim. As a claim moves through the process, it goes through a network of
components, with each component responsible for some aspect of the claim. The
components involved in the process may include the field offices, disability
determination services (DDS), Disability Quality Branches, Payment Service Centers,
administrative law judges (ALJ), Appeals Council (AC), and Federal courts.

Field Office Role

The field office assists claimants with completing an application for disability benefits
and any subsequent requests for appeal. Once the appropriate form(s) is completed,
the field office sends the claim to the appropriate component for further processing—as
long as the claimant meets the non-disability criteria for benefits1—and may receive the
claim again at some point for final processing.2

DDS Role

The DDS is generally a State-run agency that makes disability determinations for SSA.
At the DDS, a disability examiner, using SSA’s regulations, policies, and procedures,
obtains the relevant medical evidence and then, working with a physician and/or a
psychologist, evaluates the case and determines whether the claimant is disabled under
the Social Security Act.3

Disability Quality Branch Role

To ensure a high level of accuracy, the Disability Quality Branches review half the initial
and reconsideration allowances and a statistically valid sample of initial and
reconsideration denials made at each DDS. A Federal quality reviewer determines
whether the evidentiary record supports the determination and the evidence and
determination conform to SSA’s operating policies and procedures. If the Disability
Quality Branch finds the DDS’ determination is not supported, it returns the claim to the
DDS to reverse the determination or gather additional evidence.

1
 SSA may defer developing whether a person meets the non-disability criteria until receipt of a favorable
medical decision from a DDS.
2
 If the field office cannot process or partially processes the claim, it will send the claim to the payment
service center for final processing.
3
 At other DDSs, where single decision-makers are used, a disability examiner can generally make the
disability determination without signoff from a State agency physician or psychologist.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                                    C-1
Payment Service Center Role

The Payment Service Center processes favorable hearing decisions and AC review and
Federal court decisions. It also processes initial disability determinations when the field
office cannot complete them, such as when it needs assistance in determining the
amount of back payments due to the claimant.

ALJ Role

An ALJ conducts a hearing. Before the hearing, the claimant and his or her
representative may examine the evidence used in making the determination under
appeal or submit new evidence. At the hearing, the ALJ can question the claimant and
any witnesses the claimant brings. The ALJ may request other witnesses, such as
medical or vocational experts, to testify at the hearing. The claimant and his or her
representative may also question the witnesses.

The ALJ issues a decision based on all the evidence. If the claimant waives the right to
appear at the hearing, the ALJ makes a decision based on the evidence on file and any
new evidence submitted for consideration.

AC Role

The AC, which consists of administrative appeals judges, looks at all requests for review
and considers the evidence on file, any additional evidence submitted by the claimant,
and the ALJ’s findings and conclusions. The AC may grant or deny a request for
review. The AC may also, on its own motion, review a case within 60 days of the ALJ’s
decision. If the AC reviews a case, it will (1) uphold or reverse the ALJ’s decision or
(2) remand the case to the ALJ for a new decision, additional evidence, or additional
action.

Federal Court Role

The Federal District Court is the first of three courts with which a claimant may file a suit
regarding SSA’s decision on his or her disability claim. When a suit is filed with the
Federal District Court, the Court reviews all evidence on record as well as the ALJ’s and
AC’s findings and conclusions. The Court then upholds or reverses SSA’s decision or
remands the case to SSA for a new decision. If it does not find in favor of the claimant,
he or she can continue to appeal to the U.S. Circuit Court of Appeals and ultimately to
the U.S. Supreme Court.




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                C-2
                                                                                  Appendix D

Scope, Methodology, and Sample Results
To achieve our objective, we:

   Reviewed the Social Security Act, American Recovery and Reinvestment Act of
    2009, and Social Security Administration’s (SSA) regulations, rules, policies, and
    procedures.
   Reviewed prior Office of the Inspector General reports.
   Reviewed SSA's Fiscal Year 2008 Performance and Accountability Report and
    Annual Statistical Report on the Social Security Disability Insurance Program, 2007.
   Obtained data files of all disability decisions made in Fiscal Year 2008. From these
    files, we identified individuals who (1) were found disabled, (2) were receiving
    benefits as of March 2009, and (3) had a mailing address in the 48 contiguous
    United States. Through further analysis, we identified 3 mutually exclusive
    populations:

     367,465 individuals who received determinations from the disability determination
      services (DDS) at either the initial level—for claims that took longer than
      average1—or the reconsideration level;
     282,701 individuals who received decisions from an administrative law judge
      (ALJ); and
     961 individuals who received decisions from the Appeals Council (AC) or the
      Federal courts.

   Randomly selected 250 cases from the first 2 populations and 50 from the last
    population—for a total of 550 cases. For each case, we:
     Reviewed records from SSA’s systems such as the Master Beneficiary Record,
      Supplemental Security Record, Disability Determination Services Query, and
      Office of Hearings and Appeals Query.
     Mailed beneficiaries or their representative payees up to two letters regarding our
      review.
     Called the beneficiaries or their representative payees up to three times. For
      those we were able to contact, we recorded any information they provided
      regarding whether the wait for benefits impacted their finances, access to medical
      care or relationships.

1
 We determined a claim took longer than average to process if the difference between the date of
application and the date the DDS made an initial determination exceeded the average initial disability
processing time. In FY 2008, the average processing time for initial disability claims was 106 days. SSA,
FY 2008 Performance and Accountability Report, p. 46, November 2008.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)                           D-1
We conducted our audit between January and July 2009 in Boston, Massachusetts.
The entities audited were SSA's field offices, DDSs, and Payment Service Centers
under the Deputy Commissioner for Operations; SSA’s Disability Quality Branches
under the Deputy Commissioner for Quality Performance; and SSA’s ALJs and AC
under the Deputy Commissioner for Disability Adjudication and Review.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLE RESULTS

                             Table D-1: Sample Cases by State
                                                Number of
                                                                      Portion of
                           State                 Sampled
                                                                       Sample
                                               Beneficiaries
                  Alabama                               16                   2.9%
                  Alaska                                 0                   0.0%
                  Arizona                                7                   1.3%
                  Arkansas                               4                   0.7%
                  California                            40                   7.3%
                  Colorado                              10                   1.8%
                  Connecticut                            4                   0.7%
                  Delaware                               3                   0.5%
                  District of Columbia                   3                   0.5%
                  Florida                               31                   5.6%
                  Georgia                               19                   3.5%
                  Hawaii                                 0                   0.0%
                  Idaho                                  3                   0.5%
                  Illinois                              16                   2.9%
                  Indiana                               11                   2.0%
                  Iowa                                   6                   1.1%
                  Kansas                                 4                   0.7%
                  Kentucky                              19                   3.5%
                  Louisiana                              6                   1.1%
                  Maine                                  1                   0.2%
                  Maryland                               7                   1.3%



Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)          D-2
                             Table D-1: Sample Cases by State
                                                Number of
                                                                      Portion of
                           State                 Sampled
                                                                       Sample
                                               Beneficiaries
                  Massachusetts                         8                    1.5%
                  Michigan                             21                    3.8%
                  Minnesota                             5                    0.9%
                  Mississippi                           7                    1.3%
                  Missouri                             18                    3.3%
                  Montana                               4                    0.7%
                  Nebraska                              2                    0.4%
                  Nevada                                6                    1.1%
                  New Hampshire                         3                    0.5%
                  New Jersey                            7                    1.3%
                  New Mexico                            6                    1.1%
                  New York                             37                    6.7%
                  North Carolina                       19                    3.5%
                  North Dakota                          1                    0.2%
                  Ohio                                 33                    6.0%
                  Oklahoma                             13                    2.4%
                  Oregon                               12                    2.2%
                  Pennsylvania                         33                    6.0%
                  Rhode Island                          1                    0.2%
                  South Carolina                        8                    1.5%
                  South Dakota                          2                    0.4%
                  Tennessee                            19                    3.5%
                  Texas                                33                    6.0%
                  Utah                                  4                    0.7%
                  Vermont                               1                    0.2%
                  Virginia                             11                    2.0%
                  Washington                            6                    1.1%
                  West Virginia                         7                    1.3%
                  Wisconsin                            12                    2.2%
                  Wyoming                               1                    0.2%
                  Total                               550                    100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)          D-3
                Table D-2: Audit Populations and Number of Participants
            Adjudication
                                  Population       Sample             Participants
               Level
          DDS                       367,465          250           191          76%
          ALJ                       282,701          250           195          78%
          AC/Federal
                                         961          50             38         76%
          Court

          TOTAL                     651,127          550           424          77%



              Table D-3: Sample Results - Impact of Wait for Benefits on
                            Finances in All Populations
                          Impact                                Participants
           Did Impact Finances                              340                80%
           Did Not Impact Finances                            51               12%
           Did Not Mention Impact                             33               8%
           TOTAL                                            424              100%




              Table D-4: Sample Results - Impact of Wait for Benefits on
                            Finances in DDS Population

                           Impact                               Participants
           Did Impact Finances                              142              74%
           Did Not Impact Finances                            30             16%
           Did Not Mention Impact                             19             10%
           TOTAL                                             191             100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)            D-4
              Table D-5: Sample Results - Impact of Wait for Benefits on
                            Finances in ALJ Population

                           Impact                               Participants
           Did Impact Finances                              163              84%
           Did Not Impact Finances                            20             10%
           Did Not Mention Impact                             12                6%
           TOTAL                                            195              100%




              Table D-6: Sample Results - Impact of Wait for Benefits on
                       Finances in AC/Federal Court Population

                           Impact                               Participants
           Did Impact Finances                                35                92%
           Did Not Impact Finances                             1                3%
           Did Not Mention Impact                              2                5%
           TOTAL                                              38             100%



              Table D-7: Sample Results - Impact of Wait for Benefits on
                      Access to Medical Care in All Populations

                           Impact                                Participants
           Did Impact Access to Medical
                                                                127              30%
           Care
           Did Not Impact Access to Medical
                                                                282              67%
           Care
           Did Not Mention Impact                                  15            3%
           TOTAL                                                424             100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             D-5
              Table D-8: Sample Results - Impact of Wait for Benefits on
                      Access to Medical Care in DDS Population

                           Impact                                Participants
           Did Impact Access to Medical
                                                                48               25%
           Care
           Did Not Impact Access to Medical
                                                              131                69%
           Care
           Did Not Mention Impact                               12               6%
           TOTAL                                              191            100%



              Table D-9: Sample Results - Impact of Wait for Benefits on
                      Access to Medical Care in ALJ Population

                           Impact                                Participants
           Did Impact Access to Medical
                                                                 62              32%
           Care
           Did Not Impact Access to Medical
                                                               131               67%
           Care
           Did Not Mention Impact                                 2               1%
           TOTAL                                               195              100%



             Table D-10: Sample Results - Impact of Wait for Benefits on
               Access to Medical Care in AC/Federal Court Population

                             Impact                               Participants
           Did Impact Access to Medical Care                    17               45%
           Did Not Impact Access to Medical
                                                                20               53%
           Care
           Did Not Mention Impact                                1               2%
           TOTAL                                                38           100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             D-6
             Table D-11: Sample Results - Impact of Wait for Benefits on
                          Relationships in All Populations

                             Impact                               Participants
           Did Impact Relationships                             179              42%
           Did Not Impact Relationships                         172              41%
           Did Not Mention Impact                                 73             17%
           TOTAL                                                424          100%



             Table D-12: Sample Results - Impact of Wait for Benefits on
                          Relationships in DDS Population

                             Impact                               Participants
           Did Impact Relationships                               57             30%
           Did Not Impact Relationships                           96             50%
           Did Not Mention Impact                                 38             20%
           TOTAL                                                191          100%



             Table D-13: Sample Results - Impact of Wait for Benefits on
                          Relationships in ALJ Population

                             Impact                               Participants
           Did Impact Relationships                               97             50%
           Did Not Impact Relationships                           66             34%
           Did Not Mention Impact                                 32             16%
           TOTAL                                                195          100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             D-7
             Table D-14: Sample Results - Impact of Wait for Benefits on
                    Relationships in AC/Federal Court Population

                             Impact                               Participants
           Did Impact Relationships                               25             66%
           Did Not Impact Relationships                           10             26%
           Did Not Mention Impact                                  3             8%
           TOTAL                                                  38         100%




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)             D-8
                                                                             Appendix E

Additional Examples of Sample Beneficiaries’
Experiences While Waiting for Benefits
We spoke to 424 beneficiaries or their representative payees, and below are several
examples of the information provided about their experiences while waiting for a
disability decision from the Social Security Administration (SSA).

   A woman from Alabama applied for disability benefits in October 2007 because of a
    back disorder. In May 2008, the disability determination services (DDS) allowed her
    claim. While waiting for benefits, she was able to pay for her living expenses with
    her husband’s earnings. However, she was unable to pay for medical care she
    needed for problems related to her legs and feet. Still, she believed her wait for
    benefits was reasonable. She also said every SSA employee she dealt with was
    very helpful.

   A woman from Wisconsin applied for disability benefits in March 2008 because of
    colon cancer, diabetes, and asthma. The DDS denied her claim at the initial level
    but allowed it in July 2008 at the reconsideration level. During her wait for benefits,
    she paid her medical care with health insurance she obtained from the State while
    her fiancé paid her living expenses. At some point, however, her fiancé left her
    because he did not want to pay her living expenses anymore. Soon after, she was
    evicted from her home and moved in with her brother. Despite this, she believed her
    wait for benefits was reasonable.

   A woman from Oregon applied for disability benefits in June 2006 because of
    depression, anxiety, and hip and back pain. The DDS denied her claim at the initial
    level but allowed it in December 2007 at the reconsideration level. At some point
    while waiting for benefits, she could not afford her apartment or medical care. As a
    result, she became homeless and lived in shelters or on the streets. She also
    contracted pneumonia twice and tried to commit suicide. Eventually, her church
    found her a place to live, and she obtained free medical care through the county.

   A man from New York applied for disability benefits in March 2002 because of a
    back disorder, osteoarthritis, post-traumatic stress disorder, and problems with his
    vocal cords. The DDS and an administrative law judge (ALJ) denied his claim. The
    Appeals Council (AC) remanded the claim to the ALJ twice before agreeing with the
    denial. The individual then filed a suit with the Federal court, and it allowed the claim
    in July 2008. During this time, the individual said he received medical care from the
    Veterans Affairs only for his service-related injury. However, he had other medical
    issues for which he could not obtain the necessary medical care because he had no
    health insurance. This resulted in the paralysis of one vocal cord and the end of his
    singing hobby.


Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)               E-1
   A woman from Arizona applied for disability benefits in February 2003 because of
    migraines, epilepsy, and arthritis. The DDS (at both the initial and reconsideration
    levels) and an ALJ denied her claim. The AC agreed with the denial after remanding
    it to the ALJ. The individual filed a suit with the Federal court, and it allowed her
    claim in June 2008. Before applying for benefits, she moved back home with her
    parents because she could not afford to live on her own. While waiting for benefits,
    she received food stamps and health insurance through the State. However, her
    health insurance did not cover all her medications. The longer she waited, the more
    her mother worried that her daughter was not going to get the benefits she needed
    to take care of herself. Her daughter believes that this worrying caused her mother
    to have three strokes—which significantly impacted her health and eventually led to
    her death.

   A woman from Michigan applied for disability benefits in February 2005 because of
    arthritis and herniated discs. The DDS denied her claim, and an ALJ allowed it in
    October 2007. While waiting for benefits, she was able to pay for her living
    expenses with her husband’s income and her medical care with health insurance
    through her husband’s former employer. She said every time she contacted SSA,
    the employees were very nice.

   A woman from Vermont applied for disability benefits in August 2006 because of a
    back injury, heart condition, and post-traumatic stress disorder. The DDS denied
    her claim, and an ALJ allowed it in May 2008. While waiting for benefits, she spent
    all her savings to pay for her living and medical expenses. As a result, she could no
    longer afford to buy a house.

   A woman from Kentucky applied for disability benefits in October 2006 because of a
    knee replacement, diabetes, asthma, and high-blood pressure. The DDS denied her
    claim at the initial level but allowed it in October 2007 at the reconsideration level.
    While waiting for benefits, she had difficulty paying her medical expenses. To cut
    down on these expenses, she sometimes obtained medication from a free clinic.
    However, this medication caused hemorrhages that required hospitalization.
    Despite this, she stated that the SSA staff was very kind, understanding, and
    responsive.




Impact of SSA’s Claims Process on Disability Beneficiaries (A-01-09-29084)              E-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
